OFFICE OF INSPECTOR GENERAL
 for the Millennium Challenge Corporation




AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
USE OF PURCHASE CARDS
AUDIT REPORT NO. M-000-08-003-P
March 27, 2008




WASHINGTON, DC
Office of Inspector General
 for the
Millennium Challenge Corporation


March 27, 2008

The Honorable John J. Danilovich
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005


Dear Mr. Ambassador:

This letter transmits the Office of the Inspector General’s final report on the Audit of the
Millennium Challenge Corporation’s Use of Purchase Cards. In finalizing the report, we
considered your written comments on our draft report and included them in their entirety in
Appendix II of this report.

The report contains one audit recommendation for corrective action. Based on your response to
our draft report, we will close the recommendation upon issuance of this report.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,


John M. Phee /s/
Assistant Inspector General
Millennium Challenge Corporation
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Did the Millennium Challenge Corporation establish
controls and properly manage the use of its purchase
cards? ............................................................................................................................... 4

     Internal Control of the Overseas
     Purchase Card Activities Needs
     Improvement ............................................................................................................... 4

     MCC Lacks Management Oversight on
     Some Purchase Card Processes ................................................................................ 6

     MCC Should Request Exemption of
     State and Local Sales Tax on All
     Purchases ................................................................................................................... 7


Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 11
SUMMARY OF RESULTS
The Millennium Challenge Corporation (MCC) uses purchase cards to reduce the
bureaucracy and paperwork long associated with making small purchases and to quickly
acquire certain small items and services in response to MCC's rapid growth over the last
3 years. The purchase card program includes purchases and payments for goods and
services both at the micro-purchase level ($3000 limit, according to MCC’s Purchase
Card Program Handbook, which incorporates FAR's definition of 'micro-purchase
threshold' found at Subpart 2.1) and up to the simplified acquisition threshold of
$100,000 (as defined in Subpart 2.1 of the FAR and in MCC’s Purchase Card Program
Handbook. (See page 2.)

The objective of this audit was to determine whether MCC had established controls and
properly managed its purchase card program. To answer the objective, the audit team
reviewed MCC’s purchase card policies and procedures, as well as monthly purchase
card statements for 10 out of 26 cardholders. The audit found that, although overall
MCC had established controls, some areas in the purchase card program did not have
adequate internal controls, which could lead to fraud and misuse. Further, MCC lacked
management oversight on some policy requirements in the purchase card program; and
some MCC cardholders paid state and local sales tax when buying items with the
purchase card, which the Purchase Card Handbook prohibited. (See pages 3, 4, 6, 7,
and 10.)

MCC addressed some of our audit findings before the audit team completed the audit.
However, MCC did not address one of our finding areas and accordingly, we are making
one recommendation to the vice president of MCC’s Administration and Finance
Department to strengthen internal controls on the implementation of policies and
procedures on record management of items bought with the purchase card in the MCC
mission offices. (See page 5.)

Management comments are included in their entirety in Appendix II.




                                                                                      1
BACKGROUND
Congress has enacted legislation designed to simplify and streamline the acquisition of
goods and services by Federal agencies. The Governmentwide Commercial Purchase
Card (purchase card) was established as a purchase and payment tool to enable
Federal agencies to implement simplified procedures and streamline the acquisition
process by quickly ordering and paying for procurements. The purchase card program
includes purchases and payments for goods and services both at the micro-
purchase level ($3000 limit, according to MCC’s Purchase Card Program Handbook,
which incorporates FAR's definition of 'micropurchase threshold' found at Subpart 2.1)
and up to the simplified acquisition threshold of $100,000 (as defined in Subpart 2.1 of
the FAR and in MCC’s Purchase Card Program Handbook.

Like other Federal Government agencies, the Millennium Challenge Corporation (MCC)
uses purchase cards to eliminate the bureaucracy and paperwork long associated with
making small purchases and in response to MCC's rapid growth over the last 3 years.
The benefits of using purchase cards are lower administrative costs and less paperwork
for both the Government and vendors. However, given the nature, scale, and increasing
use of purchase cards, it is important for agencies to have adequate internal controls in
place to help ensure proper use of purchase cards and thus to protect the Government
from waste, fraud, and abuse.

MCC’s purchase card program is administered by the Procurement Division and has
more than 20 purchase cardholders, as well as 12 approving officials who, among other
things, review the monthly credit card statements to ensure accuracy and forward the
statements and its supporting documents to the Procurement Division. MCC revised its
Purchase Card Program Handbook in April 2007 as a result of an internal review of its
purchase card policies and procedures. The Handbook describes MCC’s purchase card
policies and procedures, and includes instructions for the completion of the cardholder's
purchase card log. The purchase card log is used to record the date and description of
each purchase made during the billing cycle. According to the Handbook, each
cardholder is required to review a monthly Statement of Account for accuracy.
Additionally, prior to submitting the statement to the approving official, the cardholder is
required to enter in a purchase log each item that was purchased, ensuring that the
proper budget and department code is provided for each transaction; provide a copy of
each sales receipt; and sign the statement. The approving official is required to review
each cardholder's purchases and determine whether these items were for official use
and whether their purchase was allowed in accordance with MCC regulations. The
Procurement Division then submits the reconciled statements to the National Business
Center, which makes the monthly payments to the bank.

Further, as a result of the revision to MCC’s Handbook, departments had the option of
being assigned a single card that would be used only by trained staff, or having cards
issued in the names of specific staff members. MCC also revised some cardholders’
spending limits according to their past spending record. Departments, such as Compact
Implementation, received a spending limit of $2,500 per month, while other departments,
such as Congressional and Public Affairs, received an increase of $10,000 or more per
month. MCC’s overall procurement program accounted for 603 transactions and an
outlay of $58.8 million, whereas, through its purchase card provider Bank of America,


                                                                                          2
MCC made a total of 908 micropurchase transactions (142 for international
transactions), valued at $610,434, 1 from October 1, 2006, through September 30, 2007.

AUDIT OBJECTIVE
This audit was conducted as part of the Office of Inspector General’s audit plan for fiscal
year 2008 to answer the following question:

1. Did the Millennium Challenge Corporation establish controls and properly manage
   the use of its purchase cards?

Appendix I contains a discussion of the audit’s scope and methodology.




1
    Unaudited data from MCC.


                                                                                      3
AUDIT FINDINGS
Overall, MCC established controls and, for the most part, properly managed the use of
its purchase cards by revising the Purchase Card Program Handbook, conducting
annual reviews of the purchase card program, assigning duties in the Handbook for the
approving officials and cardholders, requiring all cardholders to record all purchases on
a purchase card log, requiring all cardholders and approving officials to complete an
online purchase card training course, and requiring cardholders to reconcile their
monthly statements and penalizing them when they do not. However, the audit team
identified certain areas where MCC could improve some of its purchase card controls
and management oversight of the program. These areas are discussed below.


Internal Control of the
Overseas Purchase Card
Activities Needs Improvement

  Summary: MCC’s Policies and Procedures on Property, Plant, and Equipment,
  dated May 31, 2007, section 7.3.1 – Asset Accountability, specifies that its
  overseas offices must account for assets valued of at least $150 that were
  purchased locally with the MCC purchase card. One of the 10 cardholders’
  monthly statements reviewed identified several overseas purchases, which were
  more than $150 that were not included on an MCC inventory report. This occurred
  because internal controls were lacking for the asset management of overseas
  purchase card transactions. Lacking a detailed asset management system could
  lead to fraudulent, improper, and abusive use of the purchase cards.


MCC’s Policies and Procedures (Serial Number 350) on Property, Plant, and Equipment,
dated May 31, 2007, section 7.3.1 – Asset Accountability, describes MCC’s asset
management process overseas. The policy states that MCC requests from in-country
General Service Officers at post a report from the local Non-expendable Asset
management System (NEPA) listing country-specific MCC assets. In addition, MCC
requests asset data on the following items, which may not be in the NEPA report:
   •   Vehicles purchased in-country
   •   Information technology assets sent or brought over from MCC headquarters
   •   Miscellaneous administrative assets brought over from MCC headquarters (e.g.,
       cameras, file storage)
   •   Assets purchased locally using MCC purchase cards with a value of at least
       $150.00

Although MCC adhered to most of the requirements in its Handbook and other Federal
regulations, some areas in the purchase card process continue to be susceptible to
fraud and card misuse. Specifically, in fiscal year (FY) 2007, even though cardholders
recorded items purchased at the headquarters in MCC’s asset management database,
none of the overseas purchases over $150 were tracked and recorded. The records
management database at the headquarters office listed only items over $150 that


                                                                                    4
cardholders bought with the purchase card for the headquarters office. Items such as
office and home furniture that overseas MCC mission offices usually bought were not
listed in the database. 2

For example, one of the ten cardholders’ monthly statements that the audit team
reviewed disclosed that during February, March, April, and June, one deputy resident
country director had purchased several pieces of furniture ranging from $750 to $2,351
in value. An MCC staff member responsible for tracking MCC assets provided a
September 2007 report, which he said listed all the items bought with the purchase card
that were over $100.00. 3 The report, covering FY 2007, did not include any overseas
purchases made during May and September 2007. Further, the staff member told the
audit team that, from the report, he reconciled the items with his recording system.

Internal controls of MCC’s asset management for overseas purchase card transactions
were lacking, and MCC also admitted that it has not fully implemented an asset
management system of items purchased overseas that are over $150. The Agency
Program Coordinator stated that MCC senior personnel are meeting with overseas staff
to put an asset management system in place. Another MCC official stated that there
was some confusion overseas regarding which items to record because some items are
purchased via the State Department, while others are bought with the purchase card.
Nevertheless, the overseas staff is required to record items they buy with the purchase
card.


MCC stated, during our audit fieldwork, that it was preparing new procedures to record
items over $150 by the end of February 2008. However, until the Office of the Inspector
General has the opportunity to review the new procedures, the audit team is making the
following recommendation to strengthen overseas asset management controls. MCC
agreed with the recommendation and stated that items purchased overseas will be
tracked in its records management system by the end of February 2008.




        Recommendation No 1: We recommend that the Vice President of
        Administration and Finance implement policies and procedures on asset
        management of items bought with the purchase cards in the MCC
        mission offices.




2
  As a result of the audit, MCC is preparing procedures that overseas offices should follow in
order to track items over $100 that they purchase. During our audit fieldwork, MCC stated that it
expected to resolve this issue by the end of February 2008.
3
  Although MCC's procedure states that items over $150 should be recorded, MCC's records
manager lists items of $100 or more for audit purposes.



                                                                                             5
MCC Lacks Management
Oversight on Some Purchase
Card Processes

    Summary: MCC’s Purchase Card Handbook states that MCC staff must complete
    training prior to being appointed as cardholders or approving officials, and all
    approving officials should receive an appointment letter. However, during FY 2007,
    MCC did not provide formal appointment letters to the approving officials, and some
    approving officials could not document whether they had successfully completed
    their purchase card training as required. This occurred because of insufficient
    management oversight, which enabled some internal controls of the program to be
    overlooked. Without sufficient management oversight, purchase card misuse and
    fraudulent activities may occur.

According to MCC's Purchase Card Program Handbook, MCC staff must complete
training prior to being appointed as cardholders or approving officials. After they have
met the training requirements, approving officials will be appointed via a written
memorandum indicating those cardholders for which they are responsible.

However, none of the 12 approving officials received a letter stating their responsibilities
or a list of the purchase cardholders assigned to them. MCC did not provide formal
appointment letters to the approving officials even though it was a recommendation in
MCC’s Purchase Card Review, which also found that approving officials did not receive
appointment letters. Although approving officials received the appointment letters issued
to cardholders assigned to them, this did not qualify as a formal appointment letter.
Formal appointment letters list the cardholders assigned to approving officials, each
cardholder’s spending limit, and their responsibilities as approving officials.

In addition, two approving officials, who had approved transactions between October 1,
2006, and September 30, 2007, could not document whether they had successfully
completed their purchase card training as required. One official did not take the required
training until October 2007; the other stated that although she took the online course in
FY 2007 (between October 1, 2006 and September 30, 2007), she submitted her
certificate in October 2007 as proof of her training. Staff are required to submit their
certificate before taking on the responsibilities as approving officials.

The lack of sufficient management oversight, such as ensuring that all purchase
cardholders have received training, permitted some approving officials to perform their
duties even though they were not trained or had not received their appointment letters.
Moreover, without sufficient management oversight, purchase card misuse and
fraudulent activities may occur. For example, approving officials, without the required
training, may not be sufficiently knowledgeable of their duties, which may result in their
overlooking split transactions 4 or improper purchases. In addition, as some departments
do not use the purchase cards on a regular basis, the approving officials may not be
aware of who are the purchase cardholders, resulting in unauthorized individuals using
4
 A transaction that a cardholder will break down into separate purchases in order to avoid
exceeding the required spending limit. According to the Purchase Card Handbook and Federal
regulations, this is not allowed.


                                                                                       6
the card; the spending limits of their cardholders, resulting in some cardholders
exceeding their spending limit; and the type of items that are purchased, resulting in
some cardholders purchasing unauthorized items.

As a result of this audit, MCC has taken action on these issues. MCC provided each
approving official with an appointment letter before the audit ended, and during the audit,
the two approving officials completed the purchase card training course and provided
their certificates as proof. Therefore, the audit team is not making a recommendation on
this finding.



MCC Should Request Exemption
of State and Local Sales
Tax on All Purchases

    Summary: MCC’s Purchase Card Handbook states that purchases made with the
    purchase card are exempt from state and local sales tax; however, cardholders paid
    sales tax on some items. For example, one cardholder paid a total of $321.48 in
    taxes to a parking company. The program coordinator for the purchase card
    program stated that MCC did not have a tax-exempt letter that it could provide to
    vendors who refused to waive the sales tax, which made it difficult to convince
    vendors that the purchases should be tax exempt. If the cardholders continue to pay
    sales taxes, there could be significant loss to MCC.

According to MCC’s Purchase Card Program Handbook, “embossed on the face of the
card, is the statement 'U.S. GOVT. TAX EXEMPT.' At the time of the purchase,
cardholders will need to advise the merchant that the purchase is for official U.S.
Government purposes and therefore is not subject to state or local tax.”

A judgmental sample of card statements for FY 2007 disclosed that MCC had spent
more than $800 for sales tax. 5 For example, one cardholder paid sales taxes for
several services rendered, including information technology (IT) services, grocery,
and parking for the staff, which totaled $241. A second statement had a similar
charge of $160.74 for staff parking, and a third statement showed $321.48 in taxes
paid to the same parking company. Table 1 lists some of the items purchased for
which some cardholders paid sales tax.




5
  The tested sample included more than $800 in sales tax payment. The audit team did not
review each cardholder’s 12-month statements.


                                                                                           7
Table 1. Sales Tax Payments from Three Cardholders’ Monthly Purchase Card
Statements

    Cardholder      Month              Source                Sales Tax Amount
                                                6
         A          December 2006      Grocery                             $ 3.51
                                       Grocery                              41.65
                                       Parking                            160.74
                    January 2007       Parking                            160.74
                    February 2007      Parking                            321.48
                    August 2007        IT                                    8.57
                                       IT                                    8.57
                                       Department Store                      6.26
         B          July 2007          Grocery                                .34
                                       Restaurant                         102.91
         C          January 2007       IT                                    4.54
                                       IT                                   56.35
                                       Shipping                              3.45
                                       Office Supplies                       1.21
                                       Books                                 6.03
    TOTAL                                                                $886.35

The Agency Program Coordinator explained that although cardholders are required to
seek exemption from paying taxes, MCC did not have tax-exempt letters, issued by the
District of Columbia and state agencies, that it could provide to vendors who refused to
waive the sales tax. Furthermore, it is sometimes difficult to dispute a sales tax on
purchase card transactions for a small amount. If cardholders continue to pay sales
taxes, there could be significant loss to MCC.

Since this audit, MCC has obtained sales tax-exempt letters for the District of Columbia,
Maryland, and Virginia. It has provided each cardholder with those three sales tax
exemption letters and included the letters in the Purchase Card Handbook. No
recommendation is being made in this area because MCC has taken action to resolve
the issue.




6
 Some MCC cardholders use the purchase card to purchase food for events, as well as
publications for their departments.


                                                                                      8
EVALUATION OF
MANAGEMENT COMMENTS
The Millennium Challenge Corporation provided written comments to our draft report that
are included in their entirety in Appendix II. In its response, MCC agreed with the
recommendation.

In response to Recommendation No .1, MCC agreed with the recommendation that it
needs procedures to track overseas purchases that are made by MCC mission offices.
MCC updated its Credit Card Management Plan in February 2008 to include procedures
that employees should follow when making purchases of $150 or more with MCC credit
cards. In addition, MCC has sent the updated plan to its overseas mission offices,
alerting them of the change.

Furthermore, MCC feels that is has complied with the OIG’s recommendation by
updating the Credit Card Management Plan with these new procedures and
communicating these updates to overseas staff.




                                                                                  9
                                                                        APPENDIX I



SCOPE AND METHODOLOGY
Scope
This audit was made in accordance with generally accepted Government auditing
standards. The Office of the Inspector General (IG) reviewed the Millennium Challenge
Corporation's (MCC) purchase card policies and procedures to ensure that they
complied with Governmentwide standards. We reviewed a judgmental sample of
statements from 10 out of 26 cardholders in MCC’s departments that used the purchase
card during fiscal year 2007 (October 1, 2006 through September 30, 2007) to assess
whether cardholders provided the three required documents—monthly statement,
purchase card log, and receipts—and tested these documents for accuracy. We also
tested the purchase card program’s internal controls.

Furthermore, we reviewed MCC's record keeping of the purchase cards, convenience
check, required training, and other documents that MCC maintained.

No previous Government Accountability Office or IG reports have been issued on MCC’s
purchase card program; however, we did follow up on MCC’s annual review of its
purchase card program conducted in February 2007. No other issues came to our
attention that were deemed significant enough to warrant expanding the scope of this
audit.


Methodology
To answer whether MCC established controls and properly managed the use of its
purchase cards, we did the following:

   •   Reviewed MCC’s Purchase Card Program Handbook.
   •   Reviewed related U.S. Government regulations as defined in the Federal
       Acquisition Regulation (Part 13), the Treasury Financial Manual (TFM, Vol. 1,
       Part 4, Chapter 4500), and OMB Circular A-123, revised Appendix B.
   •   Interviewed cardholders, approving officials, and the purchase card Agency
       Program Coordinator.
   •   Randomly selected and reviewed monthly statements from 10 out of 26
       cardholders.
   •   Reviewed the use of convenience checks to make transactions when a vendor
       does not accept credit cards.
   •   Reviewed the process that check writers followed, and compared the
       transactions as stated in the monthly purchase card statements because MCC
       authorized some cardholders to purchase items with checks when vendors did
       not accept credit cards.
   •   Assessed the physical security of the purchase cards and convenience checks
       maintained by cardholders.




                                                                                  10
                                                                          APPENDIX II



MANAGEMENT COMMENTS



Date:         March 18, 2008

To:           John Phee, Assistant Inspector General, Millennium Challenge
              Corporation

From:         Michael Casella /s/
              Deputy Vice President, Millennium Challenge Corporate

Regarding:    Response to the Draft Report on the Audit of the Millennium Challenge
              Corporation’s Use of Purchase Cards


This memo serves as MCC’s management response to the Draft Report on the Audit of
the Millennium Challenge Corporation’s Use of Purchase Cards. We also consider this
response to be the management decision and notice of final action for the
recommendation in the draft audit.

Recommendation #1: We recommend that the Vice President of Administration and
Finance implement policies and procedures on asset management of items bought and
with purchase cards in the MCC mission offices.

MCC concurs with the recommendation that procedures are needed to better track
overseas purchases made by MCC mission offices. To address this issue, MCC
updated its Credit Card Management Plan in February 2008 to include procedures
outlining what employees must do when assets of $150 or greater are purchased with
MCC credit cards. The updated version of the plan was sent to the overseas mission
offices alerting them to the inclusion of these new procedures (which can be found in
Section V part E of the management plan). I have attached a copy of the plan to this
letter. I have also listed the new procedures below for your review.

We feel that by updating the credit card management plan with these new procedures
and communicating these updates to overseas staff we have satisfied the requirements
in recommendation of the OIG and consider it closed.

Thank you




                                                                                        11
   New Procedures

1. Cardholders are required to ensure property tags are affixed to non-expendable goods
   valued at $150 or greater;
2. Cardholders must record all purchases in the credit card log;
3. The approving official and Contracts division will verify that property tags have been
   affixed to non-expendable goods valued at $150 and greater by reviewing cardholders’
   monthly statements and credit card logs to identify these purchases;
4. The Contracts Division will record these items in the asset management database for
   property accountability.




                                                                                     12
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
